USING CRU-X TO CAPTURE OFFICIAL
TIME SPENT ON REPRESENTATIONAL
           ACTIVITIES
      Federal Aviation Administration
       Report Number: AV-2004-033
      Date Issued: February 10, 2004
           U.S. Department of
                                                             Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:     ACTION: Using CRU-X to                                     Date:   February 10, 2004
             Capture Official Time Spent on
             Representational Activities
             Report No. AV-2004-033
             Alexis M. Stefani                                       Reply to
  From:                                                              Attn of:   JA-10:x60500
             Principal Assistant Inspector General
              for Auditing and Evaluation
    To:      Federal Aviation Administrator


             This memorandum is to bring to your attention several observations we have
             regarding official time granted for union representational activities as reported by
             the Department of Transportation (DOT) in a recent Government-wide survey by
             the Office of Personnel Management (OPM). As reported by OPM, DOT granted
             over 612,000 hours (the equivalent of 294 staff-years) of official time in fiscal year
             (FY) 2002 for representational activities. Ninety eight percent of the hours granted
             were attributable to the Federal Aviation Administration (FAA), and the vast
             majority of those hours were within what is now the Air Traffic Organization.

             The amount of time DOT granted (which was primarily time granted by FAA)
             stands out in comparison with all other agencies. For example, the Department of
             Defense, which has 10 times the number of bargaining unit employees, granted
             only about twice the amount of time granted by DOT. However, the hours FAA
             reported include time granted for traditional representational activities (such as
             negotiating agreements), as well as time granted for bargaining unit employees to
             work on FAA work groups (such as task forces for developing new equipment).
             About half of the 612,000 hours reported were for traditional representational
             activities and the remaining hours were for time spent by bargaining unit
             employees working on work groups.

             The time spent on work groups can be further stratified between time spent
             pursuant to collective bargaining agreements and time spent pursuant to
             management’s request. However, FAA does not differentiate between the two. As
             a result, the Agency reports all time spent by bargaining unit employees working
             on work groups as official time granted for representational activities.
                                                                                   2



While FAA’s methodology ensures that all time granted as a result of collective
bargaining requirements is reported, it presents an inaccurate picture of the
Agency’s workforce activities and may preclude meaningful comparisons to other
Government agencies.

The lack of accurate data on official time reinforces the need for the Air Traffic
Organization to have a labor distribution system for capturing and reporting
various metrics concerning the activities of its workforce. FAA’s planned labor
distribution system (CRU-X) could be used to more accurately capture data on
official time by designating different codes for: (1) time spent on representational
activities; (2) time spent on work groups pursuant to collective bargaining
requirements; and (3) time spent on work groups at management’s request. We
recommend that FAA designate these different activities within CRU-X to ensure
official time, as reported, accurately reflects the activities of FAA’s workforce.

CRU-X is not yet operating as originally designed, and we have significant
concerns about a memorandum of understanding (MOU) between FAA and the
controllers’ union that severely limits the system’s ability to track workforce data.
We understand that FAA and the union re-opened the CRU-X MOU in September
2003 and that FAA has briefed the union on substantive changes planned for the
system. FAA expects to begin discussions with the union regarding CRU-X later
this month. In our opinion, FAA and the union need to take the necessary steps to
ensure that the internal controls for CRU-X are implemented as originally
intended.

OBSERVATIONS

This review was conducted as part of our general oversight responsibility of FAA.
The purpose was to bring to FAA’s attention several observations we had
regarding official time granted for union representational activities as reported by
DOT in a recent Government-wide survey by OPM. The scope and methodology
we used in conducting this review are included as an exhibit at the end of this
memorandum.

In June 2003, OPM issued a summary report at the request of the House
Committee on Appropriations, comparing official time granted for representational
activities among all Federal agencies during FY 2002. Official time is generally
defined as authorized, paid time off from assigned Government duties to represent
a union or its bargaining unit employees.
                                                                                      3


In the OPM summary report, DOT reported granting 612,397 hours of official time
to represent 44,190 bargaining unit employees, which is the equivalent of
294 staff-years. Ninety eight percent (600,494 hours) of the 612,397 hours were
granted by the FAA, and the vast majority of those hours were within what is now
the Air Traffic Organization. There are several salient statistics regarding the
amount of official time reported by DOT (which was primarily time granted by
FAA) that stand out as compared to the amount of official time granted by other
Federal agencies. For example:

• The Department of Defense, which has 10 times the number of bargaining unit
  employees, granted only about twice the amount of time granted by DOT.

• DOT had the largest increase in time granted as compared to 1998, going from
  193,728 hours in 1998 to 612,397 in 2002 (an increase of more than
  200 percent).

• The estimated total cost of the time DOT granted was $22.5 million, which was
  the second highest in the Government behind only the Department of Defense
  (with a total estimated cost of $29.2 million).

• The amount of time DOT granted in FY 2002 was the equivalent of
  13.86 hours per bargaining unit employee, which is three times the
  Government-wide average of 4.21 hours.

On the surface, these metrics appear problematic as compared to other agencies.
However, in reporting official time, FAA includes both time granted for traditional
representational activities (such as time spent as a facility representative) as well as
time granted for bargaining unit employees to work on FAA task forces and/or
work groups. These include work groups for fielding new air traffic systems and
projects such as airspace redesign.

Of the approximately 612,000 hours granted, about half were for traditional
representational activities, and the remaining half were for time spent by
bargaining unit employees working on FAA work groups. The time spent by
collective bargaining employees working on FAA work groups can be further
stratified between time spent pursuant to collective bargaining agreements and
time spent pursuant to management’s request. For example, FAA management
routinely requests that controllers from the bargaining unit assist in redesigning the
National Airspace System. In those cases, the time spent by the bargaining unit
employee is at the request of management and may not be related to union
representational issues.
                                                                                4


However, FAA does not differentiate whether the time spent on work groups is a
result of collective bargaining requirements or at the request of management. As a
result, FAA reports all time spent by bargaining unit employees working on task
forces and/or work groups as official time granted. By including both categories,
FAA’s report may exceed OPM’s definition of official time granted for
representational activities.

While FAA’s methodology ensures that all time granted as a result of collective
bargaining requirements is reported, it presents an inaccurate picture of the
Agency’s workforce activities and may preclude meaningful comparisons to other
Government agencies.

The lack of accurate data regarding official time for representational activities
reinforces the need for the Air Traffic Organization to have an accurate labor
distribution system for capturing and reporting various metrics on its workforce.
As we reported in our June 2003 assessment of FAA’s cost accounting system,
FAA is planning on implementing a labor distribution system called CRU-X for
the Air Traffic Organization. CRU-X could be used for more accurately capturing
data on official time by designating different codes for: (1) time spent on
representational activities; (2) time spent on work groups pursuant to collective
bargaining requirements; and (3) time spent on work groups pursuant to
management’s request. Stratifying between those categories is important because
of the large amount of time being reported by FAA as official time granted for
representational activities (the equivalent of 294 staff-years).

In September 2002, however, FAA management entered into an agreement that
limited CRU-X’s ability to track employee activities.          Specifically, the
memorandum of understanding (MOU) between FAA and the controllers’ union
eliminated key internal control functions such as requiring employees to sign in
and out of the system when arriving or leaving work or tracking time spent by
employees performing collateral duties. In our assessment, we cited the lack of
those fundamental procedures as a serious internal control weakness and
recommended that FAA implement satisfactory internal controls for CRU-X,
including requirements to capture time worked by employees on collateral duties.

FAA and the controllers’ union re-opened the CRU-X MOU in September 2003,
and in January 2004, FAA briefed the union on substantive changes planned for
the system. FAA expects to begin discussions with the union regarding CRU-X
later this month. In our opinion, FAA and the union need to take the necessary
steps to ensure that the internal controls for CRU-X are implemented as originally
intended.
                                                                                   5


RECOMMENDATION

To ensure that official time granted for representational activities is accurately
reported, we recommend that FAA designate different codes within CRU-X for
capturing time spent on: (a) representational activities; (b) work groups pursuant to
collective bargaining requirements; and (c) work groups pursuant to management’s
request.

ACTIONS REQUIRED

We provided a draft copy of this report to Agency officials on January 29, 2004, to
obtain their views and comments. In general, those officials agreed with the facts
as presented in this report, our conclusions, and our recommendation.

In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your formal written comments within 15 calendar days. If
you concur with the recommendation, please indicate the specific actions taken or
planned and the target dates for action. If you do not concur, please provide an
explanation of your position. We welcome any alternative courses of action that
could resolve the issues.

We appreciate the cooperation and assistance provided by you and your staff
during our review. If you have any questions or need further information, please
feel free to contact me at (202) 366-1992, or David Dobbs, Assistant Inspector
General for Aviation at (202) 366-0500.

                                         #
cc:    FAA Deputy Administrator
       Air Traffic Chief Operating Officer
       FAA Chief of Staff
                                                                                   6


EXHIBIT. SCOPE AND METHODOLOGY
The purpose of this review was to bring to FAA’s attention several observations
we had regarding official time granted for union representational activities as
reported by DOT in a recent Government-wide survey by the Office of Personnel
Management.

We conducted this review in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States, and included such tests
as we considered necessary to provide reasonable assurance of detecting abuse or
illegal acts.

We conducted the review between January and February 2004. To evaluate
official time reported by FAA, we obtained and reviewed the Office of Personnel
Management summary report of official time use for FY 2002 and calculated
various metrics comparing the hours granted by DOT to other Federal agencies as
reported by OPM. We also obtained and analyzed the supporting documentation
provided to OPM by DOT, including the supporting documentation provided to
DOT by FAA. We interviewed officials from FAA labor relations to gain an
understanding of what activities FAA included in the hours reported for
representational activities. We also interviewed program managers responsible for
CRU-X to determine if the system could be programmed to identify and track
various categories of official time granted. Lastly, we provided a draft copy of this
report to FAA officials for their review and to obtain their comments.
